                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: 111030008                                                                 Page 1 of 1



     OIG received an allegation that a program at NSF might be inappropriately comingling funds from
     two different funding codes .. OIG reviewed the available information in the financial systems and
     sought information from the NSF program. Funding from these two discrete codes can be used to
     jointly fund a project. Comingling of the two funds does happen and is openly tracked by the NSF
     systems. There is no substance to the allegation that the funds are comingled inappropriately.

            This case is closed with no further action taken.
                                                          -~·
...
                                                                                                                        .,..,   f,




                                                                                       -.               "'-.. ,, ~ !.
                                                                                                                                                                                                                             .'
                                                                                                                                                                                              ' '                                   '




                                                          -'
                                                          ~ ,._. , _}         i. 'r' ~t .• L""'

                                                                                                    ~                                                                                                          .                        .
                                    ~-•.   It'
                                                                        t '\. ,,    ' " ' ' "{) (                                                                                                     I~{; -·~;.~tq ~ • \ ~

      .~
                                                                              i I
                                                                                                                                     '       'Jr'.-4
                                                                                                                                                              r'·J-1
                                                                                                                                                                         '.
                                                                                                                                                                       "r: ...
                                                                                                                                                                                 .,.     )     ,!           "...   ... •
                                                                                                                                                                                                                   .       'ir,)'


                                                                                                                                                                                                                                        I
                                                                                                                                                                                                                                            !I

                                       .(~''                                                                                                           .,tl                            •},,         i"'i;                       i
                               .i                                                                                                                               .;j              •~'
                                                 ""'t"•
                                                                                                                                         ;
                                                                                                                                              -· -'




                                                                                                                                                                                                                                                 '.
                                                                                                                                                                                                                                                 t-·

           ...
                                                                                                                                                                                                                                                 II-•
                                                                                                                                                                                                                                                 F
                                                                                                                                                                                                                                                  '   ~·




                                                                                                                                                                                                                                                           ,.
             ''

                                                                                                                                                                                                                                                       t'

                 i   i




                                                                                                                                                                                                                                                                ..



                     rl

                         '·t
